                                          Office of Inspector General
                                          U.S. Small Business Administration


                                                                                        January 2011 Update


                                                                      received loan applications from potential borrowers.
  Business Loan Programs                                              When submitting the applications to various banks, he

  Kentucky Man Indicted. On January 4, 2011, a                        inflated the income information provided by the
  Kentucky man was indicted on five counts including                  applicants. The investigation identified 26 loans/lines
  bank fraud, forged security, aggravated identity theft,             of credit wherein the income information provided to
  wire fraud, and credit card fraud. The indictment                   the banks was not the same as the income information
  alleges that he used the identity of a former business              the applicant(s) provided to the group. Five of these
  partner to obtain an SBAExpress loan as well as                     loans were guaranteed by the SBA. This is a joint
  multiple credit cards. The indictment also alleges that             investigation with the Federal Bureau of Investigation
  he deposited a $167,000 counterfeit check into a                    (FBI).
  federally insured financial institution. This is a joint
  investigation with the United States Secret Service                 Disaster Loans
  (USSS).
                                                                      Husband and Wife Indicted. On January 12, 2011, a
  Business Owner Pleads Guilty to False Statements.                   husband and wife were indicted in U.S. District Court
  On January 10, 2011, in U.S. District Court for the                 for the Eastern District of Texas on one count of
  Central District of California, a former restaurant                 conspiracy to commit fraud in connection with a major
  group owner pled guilty to making false statements on               disaster or emergency benefits; one count of fraud in
  a loan application. The subject, who was president of               connection with a major disaster or emergency
  three different businesses, made false statements on                benefits; and one count of theft of money or property.
  three loan applications submitted under the SBA 7(a)                The couple applied for and received an SBA Disaster
  program. The subject submitted applications to a bank               loan in the amount of $171,600, to rebuild their home
  for SBA-guaranteed loans totaling over $1 million                   that had been damaged as a result of Hurricane
  dollars. On all three loan applications, the subject                Katrina. The indictment alleges that they conspired to
  falsely reported that neither he, nor his business, were            defraud the SBA by submitting fraudulent receipts and
  involved in any pending lawsuits or had any business                invoices and making fictitious statements and
  indebtedness. In fact, he was a defendant in two civil              representations in order to increase their loan amount
  lawsuits that resulted in judgments against him in the              and justify the use of loan proceeds. This is a joint
  amounts of $1,377,949 and $529,844. It was also                     investigation with the Department of Homeland
  discovered that the subject failed to report numerous               Security (DHS) OIG.
  outstanding debts to the bank.
                                                                      Woman Pleads Guilty to Theft of Government Funds.
  Texas Man Indicted for Bank Fraud and False                         On January 13, 2011, a Louisiana woman pled guilty
  Statements. On January 26, 2011, a businessman was                  to a Criminal Information filed in the Eastern District
  indicted in the Southern District of Texas on five                  of Louisiana, charging her with three counts of theft of
  counts of bank fraud and five counts of false                       government funds. The subject provided false
  statements. The indictment included a Notice of                     statements on her applications for disaster assistance.
  Criminal Forfeiture for property derived as a result of             She claimed that her primary residence had been
  these offenses including approximately $419,000 in                  affected by Hurricane Katrina; however, although she
  U.S. currency. The subject was owner of a group that                owned the property, the house was considered


Monthly Update on Activities of the SBA Office of Inspector General
unlivable prior to the storm. As a result of her claims,
she received $219,000 in disaster loan funds from the
SBA, a $150,000 grant from the Housing and Urban                           This update is produced by the SBA OIG,
Development (HUD) Road Home Program, and                                    Peggy E. Gustafson, Inspector General.
approximately $26,676 from the Federal Emergency
Management Agency (FEMA). This is a joint                                  The OIG has established an e-mail address
investigation with HUD OIG, DHS OIG, and the FBI.                     (oig@sba.gov) that we encourage the public to use to
                                                                        communicate with our office. We welcome your
Louisiana Woman Pleads Guilty. On January 26,                            comments concerning this update or other OIG
2011, a Louisiana woman pled guilty to an amended                      publications. To obtain copies of these documents
charge of attempted felony theft. The court sentenced                                   please contact:
her to 6 months in the jail (suspended) and placed her
on unsupervised probation until her SBA loan is paid                                      SBA OIG
in full. This investigation determined that the subject                         409 Third Street SW., 7th Floor
misrepresented her income and employment to SBA to                                  Washington, DC 20416
obtain loan approval and subsequent increases totaling                               E-mail: oig@sba.gov
$215,500. She also made false statements and                                   Telephone number (202) 205-6586
submitted fraudulent documentation to claim highly                               FAX number (202) 205-7382
inflated disaster losses and repair expenses. This was
a joint investigation with the HUD OIG, DHS OIG,                      Many OIG reports can be found on the OIG’s website
and the FBI.
                                                                         http://www.sba.gov/office-of-inspector-general
Agency Management                                                        If you are aware of suspected waste, fraud, or
                                                                      abuse in any SBA program, please report it online at:
Weaknesses Identified During 2010 Information
Security Management Act Review. On January 28,
                                                                      http://www.sba.gov/office-of-inspector-general/2662
2011, the OIG issued a report on SBA's compliance
with the Federal Information Security Management
                                                                       Or call the OIG Hotline toll-free at (800) 767-0385
Act (FISMA) for FY 2010. The OIG’s review
disclosed that (1) SBA had not developed a complete
inventory of system interconnections, and
interconnection security agreements (ISAs) had not
been established; (2) SBA had not developed
comprehensive configuration management policies
and procedures and had not inventoried or established
baseline configurations for all systems; (3) System
Certifications and Accreditations (C&As) were not
conducted in compliance with the National Institute of
Standards and Technology requirements; (4) SBA's
Plan of Action and Milestones (POA&M) program
reporting tool did not adequately track weaknesses,
provide accurate estimated dates for remediation, and
was not updated timely; and (5) SBA’s continuity of
operations plans were not documented or tested.
Additionally, the OIG determined that IT security
support contractors started work prior to completing
preliminary background screening and that oversight
of the existing IT security contract to ensure SBA’s
compliance with FISMA guidelines was lacking. The
OIG made a number of recommendations to address
the deficiencies identified during the review.




Update on the Activities of the SBA Office of Inspector General   2                                    January 2011
